HHS/OIG, Audit -"Superfund Financial Activities at the National Institute of Environmental Health Sciences for
Fiscal Year 2003,"(A-04-04-01004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 2003," (A-04-04-01004)
February 9, 2005
Complete
Text of Report is available in PDF format (159 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether costs recorded by the National Institute of Environmental
Health Sciences (NIEHS) were allowable, allocable, and reasonable in accordance with applicable laws and regulations.  We
found that the NIEHS Superfund costs recorded for the audit period were allowable, allocable, and reasonable.  We
also determined that NIEHS took appropriate action to ensure that its Superfund grantees submit required audit reports.  This
report contained no recommendations.